Audit Report




OIG-12-047
TERRORIST FINANCING/MONEY LAUNDERING: FinCEN’s BSA
IT Modernization Program Is on Schedule and Within Cost,
But Requires Continued Attention to Ensure Successful
Completion
March 26, 2012




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

  Results in Brief ............................................................................................ 2

  Background ................................................................................................ 5

  Findings ................................................................................................... 8

      FinCEN Prepared a Credible Business Case and Established a Project
      Management Office for Developing BSA IT Mod ......................................... 8

      BSA IT Mod Program Is Generally on Schedule But Certain Projects
      Are Delayed; Planning Costs Were Not Recorded in the IT Dashboard .......... 14

      FinCEN Needs to Address SOR Concerns ................................................... 18

  Recommendations ....................................................................................... 21

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ......................................              24
  Appendix     2:      Additional Background Information on BSA IT Mod ...................                    28
  Appendix     3:      BSA Data Flow Environment ..................................................           31
  Appendix     4:      Management Response .........................................................          34
  Appendix     5:      Major Contributors to This Report ...........................................          36
  Appendix     6:      Report Distribution ................................................................   37

Abbreviations

  BSA                  Bank Secrecy Act
  BSA Direct           BSA Direct Retrieval and Sharing
  BSA IT Mod           BSA Information Technology Modernization Program
  CIO                  Chief Information Officer
  E-300                Exhibit 300
  EVM                  earned value management
  FinCEN               Financial Crimes Enforcement Network
  GAO                  Government Accountability Office
  IRS                  Internal Revenue Service
  IT                   Information Technology

                       FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,               Page i
                       But Requires Continued Attention to Ensure Successful Completion
                       (OIG-12-047)
MITRE     MITRE Corporation
MMO       Modernization Management Office
OCIO      Office of the Chief Information Officer
OIG       Office of Inspector General
OMB       Office of Management and Budget
PMO       Project Management Office
SOR       system of record
TEOAF     Treasury Executive Office of Asset Forfeiture
WebCBRS   Web-based Currency and Banking Retrieval System




          FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page ii
          But Requires Continued Attention to Ensure Successful Completion
          (OIG-12-047)
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General




                     March 26, 2012

                     James H. Freis, Jr., Director
                     Financial Crimes Enforcement Network

                     The Financial Crimes Enforcement Network (FinCEN) administers
                     the Bank Secrecy Act (BSA), which establishes the framework to
                     combat criminal use of the financial system. BSA requires financial
                     institutions to report certain financial transactions made by their
                     customers. These reports are currently stored in an Internal
                     Revenue Service (IRS) system.

                     In November 2006, FinCEN began a system development effort,
                     the BSA Information Technology Modernization Program (BSA IT
                     Mod), to improve the collection, analysis, and sharing of BSA data.
                     It is intended that the BSA data will transition from IRS to FinCEN
                     as part of this effort. BSA IT Mod is a $120 million effort and is to
                     be completed in 2014. It follows a previously failed system
                     development effort known as BSA Direct Retrieval and Sharing
                     (BSA Direct), terminated in July 2006 when FinCEN concluded it
                     had no guarantee of success. We reviewed that failure and
                     concluded that FinCEN poorly managed the predecessor project,
                     insufficiently defined functional and user requirements, misjudged
                     project complexity, and established an unrealistic completion date.
                     We also found that the Treasury Office of the Chief Information
                     Officer (OCIO) did not actively oversee the project, as required by
                     the Clinger-Cohen Act of 1996. 1



1
 Treasury Office of Inspector General (OIG), The Failed and Costly BSA Direct R&S System
Development Effort Provides Important Lessons for FinCEN’s BSA Modernization Program (OIG-11-057;
Jan. 5, 2011).

                     FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 1
                     But Requires Continued Attention to Ensure Successful Completion
                     (OIG-12-047)
                       Pursuant to a Congressional directive, 2 we conducted this audit to
                       assess (1) whether FinCEN established an appropriate business
                       case for developing BSA IT Mod and has been following sound
                       management principles and federal guidance in planning and
                       implementing the system and (2) the status of BSA IT Mod’s cost,
                       schedule, and performance through May 2011.

                       To accomplish our objectives, we interviewed FinCEN program
                       officials, Treasury OCIO officials, IRS officials currently involved
                       with managing and using BSA data, and law enforcement users.
                       We also reviewed applicable program documentation. We
                       performed our fieldwork from November 2010 to September 2011.
                       Appendix 1 provides a more detailed description of our audit
                       objectives, scope, and methodology. Appendix 2 contains
                       additional background information on BSA IT Mod.


Results in Brief
                       We concluded that FinCEN prepared a credible business case for
                       developing BSA IT Mod. FinCEN considered four alternatives,
                       developed cost estimates and estimated benefits for each, and
                       actively engaged stakeholders for input. FinCEN also restructured
                       to strengthen management and oversight of the project.
                       Furthermore, the Treasury OCIO has been actively overseeing BSA
                       IT Mod.



2
 Senate Report (S. Rept) 112-79 regarding BSA IT Mod included a reporting directive for the Treasury
OIG as follows:

    “The Committee directs that the Inspector General [Treasury OIG] shall focus resources, when
    practical, on audits of the Bank Secrecy Act Information Technology Modernization project
    currently being planned and implemented by Treasury’s Financial Crimes Enforcement Network.
    The Committee directs that the Inspector General shall submit a written report to the Committee
    regarding this project, including contractor oversight and progress regarding budget and
    schedule, on March 31, 2012 and semiannually thereafter.”

The Conference Report on the fiscal year 2012 appropriations acts that included Treasury (Pub.L.
No. 112-74, House Report 112-331) addresses the reporting directive from S. Rept 112-79 and
notes that both the House and Senate Committees on Appropriations should receive copies of the
report.

                       FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,       Page 2
                       But Requires Continued Attention to Ensure Successful Completion
                       (OIG-12-047)
                       As of May 2011, FinCEN reported to the Office of Management
                       and Budget (OMB) that BSA IT Mod is on schedule and within an
                       acceptable 10 percent cost threshold. 3 We found that the program
                       is generally within scheduled milestones, though the development
                       of certain projects has been delayed by more than the 10 percent
                       of scheduled milestones. We also found that FinCEN incurred
                       planning costs of $11.2 million that were not recorded in the IT
                       Dashboard. 4 According to FinCEN officials, the Treasury OCIO and
                       OMB were aware of the planning costs and agreed that the costs
                       did not have to be recorded in the IT Dashboard.

                       Successful and timely completion of BSA IT Mod is, in part,
                       dependent on completion of the system of record (SOR). The SOR
                       is the authoritative data store for all BSA data in the BSA IT Mod
                       program. 5 FinCEN is developing a new SOR and in early 2011
                       experienced delays. In March 2011, FinCEN extended some SOR
                       development and testing milestones because of reported
                       complexities, such as the additional time the contractor needed to
                       ensure all business rules were configured correctly. As of
                       November 2011, FinCEN had conducted initial systems integration
                       testing of the SOR and government acceptance testing was
                       continuing. 6 In December 2011, we requested the results from
                       FinCEN for any completed testing but because testing was still
                       underway, FinCEN was unable to provide those results. We plan to

3
  Pub.L. No. 111-350, § 3103, states that it is the policy of Congress that the head of agencies should
achieve, on average, 90 percent of the cost, performance, and schedule goals established for major
acquisition programs.
4
  The IT Dashboard is a Web site enabling federal agencies, industry, the general public, and other
stakeholders to view details of federal information technology investments. The purpose of the IT
Dashboard is to provide information on the effectiveness of government IT programs and to support
decisions regarding the investment and management of resources. FinCEN provides data for the IT
Dashboard using earned value management (EVM). EVM measures the value of work accomplished in a
given period. Differences in these values are measured in both cost and schedule variances.
Explanations must be provided for variances of 10 percent and are subject to corrective action plans,
baseline change requests or termination. FinCEN contracted with MITRE Corporation (MITRE) to provide
an independent validation to ensure the accuracy of EVM data.
5
  The SOR will be an information storage system that will be the authoritative data source for BSA data.
6
  Integration testing is a software development process in which program components are combined
and tested. Integration testing can expose problems with the interfaces among program components
before trouble occurs in real-world program execution. A system test that allows the government to
independently verify aspects of the functionality tested during system testing to determine the system's
fitness for implementation.

                       FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,      Page 3
                       But Requires Continued Attention to Ensure Successful Completion
                       (OIG-12-047)
                      review the testing results as part of our ongoing oversight of the
                      program.

                      Certain IRS users have concerns about the SOR change because of
                      its impact on IRS’s Web-based Currency Banking and Retrieval
                      System (WebCBRS), and other IRS systems that depend on BSA
                      data. 7 WebCBRS is not able to use BSA data in the new SOR
                      format. FinCEN agreed to provide BSA data from its E-filing system
                      in the same format IRS currently uses and map back the data from
                      the new BSA forms in the E-filing system to the old (current) form
                      format in WebCBRS. 8 This modification was not in FinCEN’s
                      original development plan as it was initially assumed all IRS users
                      would transition to the new system. In this regard, there had been
                      some contemplation that WebCBRS would be retired, but that
                      proved not possible. This is a critical issue for IRS because it is a
                      major user of BSA data.

                      We are recommending that FinCEN (1) in conjunction with IRS,
                      ensure in the short term that IRS’s WebCBRS data needs are met
                      and, in the long term, assist IRS to ensure data requirements are
                      incorporated into IRS’s modernization efforts; and (2) ensure that,
                      for future major capital investments, required submissions to OMB
                      include full life-cycle cost estimates in accordance with OMB
                      Circular A-11 9 and that thorough documentation supporting
                      estimates is maintained. In light of IRS’s data mapping concerns,
                      and consistent with the directive in S. Rept 112-79 and H. Rept
                      112-331, we plan in 2012 to review FinCEN’s system modification
                      for WebCBRS. Additionally, as BSA IT Mod progresses through
                      completion in 2014, we plan to continue to monitor and report
                      every 6 months on FinCEN’s development and deployment of the
                      system.


7
  WebCBRS is IRS’s data warehouse and information retrieval system.
8
  As part of BSA IT Mod effort, FinCEN consolidated each of the various financial institution currency
transaction reports and suspicious activity reports into a single set of forms, and increased the data
captured on the forms. FinCEN had proposed that the new forms be implemented by June 30, 2012. In
December 2011, FinCEN announced that the deadline to start using the new forms was extended to
March 31, 2013.
9
  OMB Circular A-11, “Preparation, Submission, and Execution of the Budget,” establishes policy for
planning, budgeting, acquisition, and management of federal capital assets, and instructs on budget
justification and reporting requirements for major information technology (IT) investments.

                      FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,     Page 4
                      But Requires Continued Attention to Ensure Successful Completion
                      (OIG-12-047)
        In its management response, FinCEN concurred with the
        recommendations. FinCEN stated that it has mitigated challenges
        experienced during development of the SOR. In the short term,
        FinCEN will provide BSA data to WebCBRS via the current E-Filing
        system and formats. In support of the longer-term goal, FinCEN has
        been asked to participate on the IRS’s Integrated Project Team to
        define the IRS BSA data end-state solution. FinCEN’s involvement
        on the team includes providing the technical specifications for bulk
        data distribution, answering questions related to new BSA data
        structures, and providing support as requested.

        Regarding future major capital investments, FinCEN stated in its
        response that it currently has none planned. However, when such a
        time comes, FinCEN will ensure that required submissions to OMB
        comply with OMB’s Circular A-11 and that required documentation
        supporting cost estimates are maintained.

        The actions taken and planned by FinCEN meet the intent of our
        recommendations. The FinCEN management response is provided
        in appendix 4.


Background
        FinCEN’s mission is to safeguard the financial system from the
        abuses of financial crime, including terrorist financing, money
        laundering, and other illicit activity. FinCEN achieves this mission
        by administering BSA; supporting law enforcement, intelligence,
        and regulatory agencies through sharing and analysis of financial
        intelligence; building global cooperation with counterpart financial
        intelligence units; and networking people, ideas, and information.
        The USA PATRIOT ACT of 2001 added other requirements,
        including, among other things, tasking FinCEN with the
        development of a highly secure network to allow financial
        institutions to electronically file BSA forms and provide financial
        institutions with alerts and other information regarding suspicious
        activities that warrant immediate and enhanced scrutiny.



        FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 5
        But Requires Continued Attention to Ensure Successful Completion
        (OIG-12-047)
                      FinCEN has responsibility for overseeing the management,
                      processing, storage, and dissemination of BSA data, but currently
                      does not collect, store, or maintain the data. Since BSA reporting
                      requirements became law in 1970, IRS’s Enterprise Computing
                      Center in Detroit has collected and stored these data. BSA data are
                      processed and warehoused in IRS’s WebCBRS. (See appendix 3 for
                      a depiction of the BSA data flow environment.)

                      In 2004, FinCEN initiated the BSA Direct project to transition BSA
                      data management responsibilities from IRS, but terminated the
                      project in July 2006, before completion. Four months later, in
                      November 2006, FinCEN worked with business leaders and
                      stakeholders to establish its IT Modernization Vision and Strategy
                      and formulate its BSA IT Mod initiative. In 2008, Treasury’s
                      Executive Investment Review Board deemed BSA IT Mod a
                      Departmental priority. 10 FinCEN expects BSA IT Mod to improve
                      FinCEN’s BSA data analysis, standardize the data for customers,
                      capture customer data usage and access patterns, improve data
                      security, and largely eliminate paper filing.

                      BSA IT Mod is a multi-year development program that will cost
                      about $120 million. Total system life-cycle cost, including
                      operation and maintenance expense through 2020, is expected to
                      total about $233 million. FinCEN will need about $41 million in
                      additional funding through 2014 to complete the program. Should
                      FinCEN not receive all of the funds required to complete the
                      program in its 2013 through 2014 annual appropriations, either
                      separately or in combination with funds from the Treasury
                      Executive Office of Asset Forfeiture (TEOAF), FinCEN may have to
                      delay the program’s completion to future years.11 Congress
                      rejected FinCEN’s fiscal year 2012 budget request to transfer $30
                      million from TEOAF to fund the BSA IT Mod development program
                      and instead appropriated $18.5 million in FinCEN’s 2012 annual
                      budget. TEOAF has supplemented the funding of the BSA IT Mod

10
   The Treasury Executive Investment Review Board provides executive oversight to Treasury’s
investment planning and management process.
11
   TEOAF administers the Treasury Forfeiture Fund, which is the receipt account for deposit of non-tax
forfeitures made pursuant to laws enforced or administered by participating Treasury and Department of
Homeland Security agencies. The Fund was established in 1992 as the successor to what was then the
Customs Forfeiture Fund.

                      FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,     Page 6
                      But Requires Continued Attention to Ensure Successful Completion
                      (OIG-12-047)
                      program to a total of $27 million through fiscal year 2011. FinCEN
                      is still working with the Department and TEOAF to provide
                      additional funding, but there is no guarantee that this will be
                      approved. 12

                      In 2008, FinCEN contracted with Deloitte Consulting, LLP, to
                      oversee the systems development and integration effort. FinCEN
                      also contracted with MITRE to provide management guidance,
                      coordination, and evaluation support for BSA IT Mod.13 MITRE is a
                      subject matter expert on program and project management, and
                      BSA IT Mod business capabilities.

                      Figure 1 provides a timeline identifying significant events in the
                      BSA IT Mod program.




12
   One funding source administered by TEOAF is the Treasury Forfeiture Super Surplus Fund.
Distributions from this Fund in excess of $500,000 cannot be used until Appropriations Committees
from both Houses of Congress are notified. Notification to Congress occurs after OMB approves the
TEOAF Super Surplus plan.
13
   MITRE is a not-for-profit organization chartered to work in the public interest with expertise in
systems engineering, information technology, operational concepts, and enterprise modernization.
Among other things, it manages federally funded research and development centers, including one for
IRS and U.S. Department of Veterans Affairs (the Center for Enterprise Modernization). Under
Treasury’s existing contract with MITRE, Treasury and its bureaus, with permission of the IRS sponsor,
may contract for support in the following task areas: strategic management, technical management,
program and project management, procurement, and evaluation and audit to facilitate the modernization
of systems and their business and technical operation.

                      FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,     Page 7
                      But Requires Continued Attention to Ensure Successful Completion
                      (OIG-12-047)
Figure 1. Timeline of Significant Events in FinCEN’s BSA System Modernization Efforts

                     January 2007 –
                     December 2009                    May 2010                                          April 2014
  July 2006        FinCEN develops IT                Beginning of                                        Planned
    FinCEN        governance process,                 design and       December 2011                      system
  terminates    stakeholders’ needs, and             development        Completion of                  development
  BSA Direct          business case                     phase          SOR (release 1)                  completion


2006        2007           2008        2009          2010           2011       2012         2013           2014


     November 2006                 January 2009                        July 2011           March 2013
  FinCEN establishes IT             Beginning of                         FinCEN          Planned release
  modernization, vision             initiation and                   realigns costs           of last
  and strategy and sets            planning phase                     and adjusts        scheduled BSA
      modernization                                                     schedule             IT Mod
       foundation                                                                          component


Source: OIG review of FinCEN data.



Findings

Finding 1                 FinCEN Prepared a Credible Business Case and
                          Established a Project Management Office for Developing
                          BSA IT Mod

                          FinCEN prepared a credible business case before beginning
                          development of BSA IT Mod. FinCEN identified four alternatives
                          (including maintaining the current system), compared the costs and
                          benefits of each, and determined that a new system was the best
                          alternative. We concluded that its determination was reasonable
                          and supported by the business case. FinCEN also restructured its
                          information technology (IT) division and created the Modernization
                          Management Office (MMO) to manage the BSA IT Mod program.
                          FinCEN’s concept, approach, planning, and planned oversight
                          mechanism generally followed OMB Circular A-11 and related best
                          practices guidelines.




                          FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,               Page 8
                          But Requires Continued Attention to Ensure Successful Completion
                          (OIG-12-047)
                           FinCEN Prepared a Business Case with Four Alternatives

                           As far back as 2003, FinCEN determined the IRS’s legacy system
                           housing BSA data was antiquated and did not meet user and
                           stakeholder needs. In developing the business case for BSA IT
                           Mod, FinCEN determined that, among other things, the system
                           needed to provide more advanced analytical capability, reduce
                           costly and intensive manual processes, improve data integrity,
                           capture data usage and access patterns, solicit and provide
                           feedback to customers, and otherwise improve the customer’s
                           experience. As a result, FinCEN identified several alternatives,
                           including the costs, benefits, and risks associated with each. Based
                           on its assessment of those alternatives, FinCEN determined that a
                           new system was the best option.

                           In accordance with OMB’s Circular A-94, FinCEN evaluated four
                           alternatives for BSA IT Mod, including the status quo and three
                           system upgrades. 14 The alternatives FinCEN evaluated are
                           identified below in table 1.

             Table 1: BSA IT Mod Alternatives
                                                                          Development and             Life-cycle
                                                                            implementation             estimate
             Alternative       Description                             estimate (in millions)      (in millions)
                   1           Status quo                                             $23.3              $65.7
                   2           New government-owned                                   122.0              243.6
                               system
                    3          Augment current systems                                165.0              315.2
                    4          New contractor-owned                                   158.0              316.4
                               system
             Source: OIG analysis of FinCEN data.


                           FinCEN chose to develop a new government-owned system,
                           alternative 2, for BSA IT Mod. Alternative 2 resulted in the lowest
                           overall life-cycle cost of a system upgrade—an estimated $243.6
                           million. 15 FinCEN selected alternative 2 over the status quo
                           because the status quo provided only limited benefits and did not
                           align with FinCEN’s modernization vision and strategy.

14
     Circular A-94, “Guidelines and Discount Rates For Benefit-Cost Analysis of Federal Programs.”
15
     Life-cycle cost estimates for alternative 2 were later adjusted to $233 million.

                           FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,          Page 9
                           But Requires Continued Attention to Ensure Successful Completion
                           (OIG-12-047)
                       In identifying and selecting from the alternatives, FinCEN followed
                       guidelines established in OMB Circulars A-11 and A-94, which
                       supports the Clinger Cohen Act of 1996. 16 The guidelines provide
                       general guidance for agencies conducting cost-benefit and cost-
                       effectiveness analyses to support the government’s decision to
                       initiate, review, or expand programs that extend for 3 or more
                       years. In evaluating a decision to acquire a capital asset, the
                       guidelines state that agency analysis should generally consider
                       (1) doing nothing; (2) making a direct purchase; (3) upgrading,
                       renovating, sharing, or converting existing government property; or
                       (4) leasing or contracting for services.

                       FinCEN worked with MITRE to develop the cost estimates using an
                       IRS cost model built from historical data from similar system
                       initiatives. IRS conducted a high-level review of FinCEN’s costing
                       methodology and found it to be reasonable and the overall
                       approach sound. FinCEN also tasked MITRE to conduct an
                       independent assessment of IRS’s WebCBRS, as well as FinCEN’s
                       legacy systems, and examine the feasibility of enhancing current
                       systems to meet modernization requirements. 17 MITRE’s
                       assessment concluded that upgrading existing IRS and FinCEN
                       systems was not a viable option and that the cost to modify these
                       systems, if even possible, would be as expensive as developing a
                       new system.

                       In further defining BSA IT Mod user requirements, FinCEN engaged
                       stakeholder advisory groups, mainly through FinCEN’s Data
                       Management Council meetings. Stakeholder participants included
                       regulators, law enforcement, and industry users of BSA data.
                       FinCEN also asked IRS for guidance and input. Table 2 shows the
                       stakeholder groups who provided input to FinCEN regarding BSA IT
                       Mod.


16
   The Clinger-Cohen Act of 1996 is intended to improve the productivity, efficiency, and effectiveness
of federal programs by improving the acquisition, use, and disposal of information technology resources
that includes requiring agencies to base decisions about information technology investments on
quantitative and qualitative factors associated with their costs, benefits, and risks.
17
   FinCEN’s legacy systems include Secure Outreach, Gateway, and various analytical software
applications. Secure Outreach and Gateway allow users access to the BSA data.

                       FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,    Page 10
                       But Requires Continued Attention to Ensure Successful Completion
                       (OIG-12-047)
Table 2: BSA IT Mod Advisory Groups
Entity                       Functions include                         Participating members
FinCEN’s Integrated          Developing a vision and strategy          Individuals from
Project Team                 for the BSA IT Mod. Ongoing               business and IT
                             responsibilities are to define and        organizations within
                             validate internal and external user       FinCEN who represent
                             requirements, as well as participate      internal users
                             in user acceptance testing.
Data Management              Serving as the primary forum to           Federal law enforcement and
Council                      validate requirements and design          regulatory agencies, including
                             efforts and for giving the                IRS
                             stakeholder community the ability to
                             provide input into FinCEN’s
                             operational model for managing BSA
                             data.
BSA Advisory Group           Assisting FinCEN in obtaining             Federal law enforcement and
                             additional feedback on specific           regulatory agencies; industry
                             modernization efforts and the             representatives subject to the
                             impact of the BSA IT Mod effort to        reporting requirements of the
                             stakeholders.                             BSA
Source: OIG review of FinCEN data.


            The stakeholders we spoke with believed overall that the
            modernized program will meet their expectations and is needed to
            enhance the current system. They told us FinCEN effectively
            communicated and provided the opportunity to participate through
            the Data Management Council. They also expressed satisfaction
            with the extent to which FinCEN maintained a balance between
            what law enforcement and the regulator community wants, as well
            as how it responded to stakeholder needs and concerns.

            We believe FinCEN’s decision to build a new system was justified
            based on the business case it developed. It should be noted,
            however, that we were not able to fully validate FinCEN’s cost
            estimates because FinCEN could not provide detailed supporting
            documentation beyond the summary level for hardware and
            software cost estimates, cost savings and benefits, contracting
            services costs, and operations and maintenance, and other costs.
            According to best practices identified by the Government
            Accountability Office (GAO), estimates should be thoroughly
            documented (including source data, a narrative, clearly detailed
            calculations, and results) so that a cost analyst unfamiliar with the


            FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,       Page 11
            But Requires Continued Attention to Ensure Successful Completion
            (OIG-12-047)
                       program can recreate it quickly with the same results. 18 MITRE
                       officials overseeing the development of BSA IT Mod acknowledged
                       to us that cost estimates should have been better documented.
                       This is a matter FinCEN should address when embarking on future
                       systems development programs.

                       FinCEN Strengthened Its IT Management for BSA IT Mod

                       FinCEN underwent significant change following the failure of BSA
                       Direct. For example, there were changes in senior leadership and a
                       Project Management Office (PMO) was created to plan and execute
                       future IT projects, like BSA IT Mod.

                       With these changes, FinCEN restructured its IT Division. 19 As
                       previously stated, within this division, FinCEN established the MMO
                       to provide daily management of BSA IT Mod. In addition, FinCEN’s
                       PMO separately reviews and assesses the MMO’s practices and
                       processes related to risk, quality, scheduling, governance, and
                       change management. 20

                       Table 3 shows Treasury’s and FinCEN’s overall management and
                       oversight structure for BSA IT Mod.




18
   GAO Cost Estimating and Assessment Guide: Best Practices for Developing and Managing Capital
Program Costs (GAO-09-3SP, Mar. 2009).
19
   FinCEN is organized into five separate divisions. FinCEN’s information technology division is currently
called the Technical Services and Solutions Division and is headed by its Chief Information Officer (CIO).
20
   The MMO is governed by an internal board, which reports to the FinCEN CIO, and is comprised of
FinCEN’s Assistant Directors, an Enterprise Architect (Deputy CIO), and three Senior Advisors.

                       FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,      Page 12
                       But Requires Continued Attention to Ensure Successful Completion
                       (OIG-12-047)
Table 3: BSA IT Mod Governance, Oversight, and Management Structure
Entity                   Roles and responsibilities          Participating members
Modernization            Oversees the BSA IT                 3 members - Treasury CIO, IRS
Executive Group          governance and investment           Deputy Commissioner, and
(provides for            decision management                 FinCEN Director
external and             process
internal
governance)
Executive Steering       Ensures BSA IT Mod                  7 members - Treasury CIO,
Committee                objectives are met, risks are       FinCEN Associate Directors, IRS
(provides for            managed appropriately, and          executives (3 members)
external and             expenditure of resources are
internal                 fiscally sound
governance)
Investment Review        Reviews the project’s               9 members - FinCEN’s Director,
Board (internal          status, risks, and cost             Chief Counsel, Deputy Director,
FinCEN oversight)        decision                            Associate Directors, and other
                                                             FinCEN staff as required
Enterprise Planning      Addresses technical,                FinCEN CIO and Assistant
Board (internal          business, and/or                    Directors.
FinCEN oversight)        organizational changes at
                         the enterprise level
Project                  Provides internal review and        FinCEN Assistant Director for
Management               assessment of MMO                   the Project Management Office
Office (internal         practices                           and staff
FinCEN oversight)
Modernization            Provides daily management           FinCEN’s BSA IT Mod program
Management               of BSA IT Mod                       manager and project managers
Office (internal
FinCEN
management
function)
Project Review           Performs weekly status              FinCEN’s Technology Solutions
Board (internal          review of projects that             and Services Division
FinCEN                   examine risks and Technical         management, project managers,
management               Review Board                        and contractor personnel
function)                recommendations
Technical Review         Reviews technical                   FinCEN’s Assistant Director for
Board (internal          configuration and                   the Office of Infrastructure
FinCEN                   requirements change                 Operations and Hosting;
management               requests                            Technology Solutions and
function)                                                    Services Division staff,
                                                             contractor personnel
Source: OIG review of FinCEN data.

           FinCEN’s PMO completed an internal assessment of the program’s
           initiation and planning stages in May 2010. The assessment
           FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,      Page 13
           But Requires Continued Attention to Ensure Successful Completion
           (OIG-12-047)
            determined that FinCEN produced a strong set of planning
            documents, supporting artifacts and processes tied closely to
            agency policy and best practices. Although the assessment also
            found evidence that areas of the project were having difficulties
            operating to plan, this was attributed to normal “growing pains” for
            new programs, and these issues were actively being addressed and
            improved.

            The internal assessment found successful incorporation of previous
            lessons learned and recommendations by GAO and other reviewers,
            resulting in a comprehensive set of thorough and integrated
            planning documents. Overall, the assessment concluded that
            FinCEN demonstrated a successful execution of the program’s
            initiation and planning stages.

            Treasury’s OCIO is also providing oversight of BSA IT Mod. The
            office included the program on Treasury’s high visibility list,
            subjecting the program to extra scrutiny and attention. We found
            that the Treasury OCIO regularly reviews FinCEN’s EVM program
            reporting, tracks its status on OMB’s IT Dashboard, and provides
            regular status briefings to OMB.

            The Treasury CIO is a member of the Modernization Executive
            Group and Executive Steering Committee that oversees the BSA IT
            Mod program. We interviewed a former acting Treasury CIO
            serving in these roles during 2010 and 2011, who stated that
            FinCEN has been open and transparent in providing information on
            the status of the program.

Finding 2   BSA IT Mod Program Is Generally on Schedule But
            Certain Projects Are Delayed; Planning Costs Were Not
            Recorded in the IT Dashboard

            As of May 2011, FinCEN reported to OMB that BSA IT Mod is on
            schedule and within an acceptable 10 percent cost threshold. We
            found that the program is generally within scheduled milestones,
            though the development of certain projects has been delayed by
            more than the 10 percent of scheduled milestones. We also found
            that FinCEN incurred planning costs of $11.2 million that were not

            FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 14
            But Requires Continued Attention to Ensure Successful Completion
            (OIG-12-047)
recorded in the IT Dashboard. According to FinCEN officials, the
Treasury OCIO and OMB were aware of the planning costs and
agreed that the costs did not have to be recorded in the IT
Dashboard.

BSA IT Mod Has Generally Met All Scheduled Milestones

In May 2010, FinCEN completed the program’s initiation and
planning phases and entered the design phase. As of May 2011,
the program has successfully met all scheduled milestones,
although certain projects have exceeded development milestones
by 10 percent. FinCEN program management officials told us the
schedule slippages were primarily due to the need for further
development and testing of the program’s SOR. This is discussed
in more detail in the next section.

Table 4 displays the schedule status of BSA IT Mod by project.




FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 15
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
Table 4: BSA IT Mod Schedule Status by Project as of May 31, 2011
                                                            Projected
Project                          Start date                 end date          Status
Infrastructure
       Establish and test
       infrastructure            May 2010                   Sep 2010          Completed
       Release1                  May 2010                   Mar 2011          Completed
       Release 2                 Mar 2011                   Sep 2011          On schedule
       Release 3                 Jul 2011                   Jun 2012          Not begun
Registered user portal           May 2010                   Mar 2011          Completed
Identity management
Access management                May 2010                   Mar 2011          Completed
Data conversion                  May 2010                   Dec 2011          On Schedule
System of record
       Release 1                 May 2010                   Oct 2011          13% behind schedule
       Release 2                 Oct 2011                   Jun 2012          Not begun
 Data dissemination
       Release 1                 May 2010                   Oct 2011          19% behind schedule
       Release 2                 Sep 2011                   Jun 2012          Not begun
Shared filing services
       Release 1                 May 2010                   Oct 2011          27% behind schedule
       Release 2                 Oct 2011                   Jun 2012          Not begun
Third party data
       Release 1                 May 2010                   Oct 2011          On schedule
       Release 2                 Sep 2011                   Jun 2012          Not begun
E-filing
       Release 1                 Sep 2010                   Jun 2011          25% behind schedule
       Release 2                 Jul 2011                   Oct 2011          25% behind schedule
Alerts                           Oct 2011                   Sep 2012          Not begun
Advanced analytics
       Release 1                 Jun 2010                   Oct 2010          Completed
       Release 2                 Nov 2010                   Apr 2011          Completed
       Release 3                 May 2011                   Jul 2012          Not beguna
BSA query
       Release 1                 Feb 2011                   Mar 2012          36% behind schedule
       Release 2                 Apr 2012                   Oct 2012          Not beguna
Broker knowledge exchange (314(a) and 314(b))
       Release 1                 Sep 2010                   Jun 2011          Completed
       Release 2                 Jun 2011                   Sep 2011          Not begun
Source: FinCEN’s BSA IT Modernization Integrated Master Schedule and Program Management
Review (May 2011).
a
 In January 2012, FinCEN reported to us that in December 2011 advanced analytics release 3 and
BSA query were behind schedule. In February 2012, FinCEN reported to us that data conversion and
release 1 of system of record, shared filing services, third party data, and E-filing were all completed
on time and within budget. We plan to review related documentation as part of our ongoing oversight
of the program.



           FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,               Page 16
           But Requires Continued Attention to Ensure Successful Completion
           (OIG-12-047)
                       Costs Are Underreported

                       FinCEN projects that the cost to design, develop, and in 2014,
                       deploy the BSA IT Mod will be $120 million. BSA IT Mod is
                       estimated to have a life-cycle through at least 2020. 21
                       Enhancements and maintenance once deployed are projected to
                       cost approximately $21.7 million annually. Estimated total costs for
                       the program are projected to reach $233 million during its life-
                       cycle. As of May 31, 2011, a FinCEN program official and program
                       documentation revealed that $32.4 million has been spent on work
                       associated with the program. However, excluded from the $32.4
                       million is an estimated $11.2 million in additional program costs
                       incurred from 2008 through 2010. BSA IT Mod’s actual program
                       costs as of that date, therefore, are approximately $43.6 million.

                       We asked FinCEN officials why costs prior to May 2010 were not
                       captured. The officials told us that early costs were not included
                       because FinCEN did not receive approval from OMB to begin using
                       funds for system design until May 2010. This is when the program
                       moved beyond its planning phase.

                       FinCEN did not report in its Exhibit 300 (E-300) submissions to
                       OMB the $11.2 million in program life-cycle costs incurred from
                       2008 through 2010, although such reporting is required by OMB
                       Circular A-11. 22 According to FinCEN officials, OMB was aware
                       that these costs were not being included. In addition, Treasury’s
                       original cost estimates for developing BSA IT Mod were based on
                       the assumption that IRS’s WebCBRS would be retired when the
                       BSA IT Mod was completed. The intent to retire WebCBRS was an
                       important consideration on the part of OMB when it gave its
                       approval for FinCEN to proceed with BSA IT Mod.


21
   Life-cycle costs include all initial costs, plus the periodic or continuing costs of operation and
maintenance (including staffing costs), and any costs of decommissioning or disposal.
22
   Circular A-11 requires that E-300s be submitted for all major investments. A major investment is
defined as a system or acquisition requiring special management attention because of its importance to
the mission or function of the agency, a component of the agency or another organization; is for
financial management and obligates more than $500,000 annually; has significant program or policy
implications; has high executive visibility; has high development, operating, or maintenance costs; is
funded through other than direct appropriations; or is defined as major by the agency’s capital planning
and investment control process. The E-300 data is used to populate the IT Dashboard.

                       FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,     Page 17
                       But Requires Continued Attention to Ensure Successful Completion
                       (OIG-12-047)
                       However, in November 2009, FinCEN became aware that IRS
                       needed to continue to use WebCBRS to support its tax
                       administration functions. In April 2010, OMB and Treasury
                       determined that the retirement of WebCBRS could not occur as
                       planned and agreed to de-couple the need to retire WebCBRS from
                       proceeding with BSA IT Mod. IRS estimates it will cost about $5
                       million annually to keep WebCBRS operational.

Finding 3              FinCEN Needs to Address SOR Concerns

                       Successful and timely completion of BSA IT Mod is, in part,
                       dependent on completion of FinCEN’s new SOR. The SOR is
                       planned to be the authoritative data store for all BSA data in the
                       BSA IT Mod program. This SOR will be a data-centric designed
                       system, focusing on the BSA data and the relationships between
                       the data elements—resulting in, among other things, expected
                       greater data standardization, flexibility, and ability to better support
                       downstream analytics. In contrast, WebCBRS is a form-centric
                       system as it is focused on and coded by BSA form type, which
                       makes changes to the data structure more difficult and time
                       consuming—the coding is difficult to change and changes impact
                       each form within the system and every application with which it
                       interfaces.

                       During our review, FinCEN determined that the SOR project was
                       likely to take more than 10 percent longer than originally planned
                       to complete. Accordingly, FinCEN submitted a baseline schedule
                       change request, which was approved by Treasury OCIO and
                       accepted by OMB. The change request extended the SOR schedule
                       by 2 months to December 2011. The SOR is a critical component
                       of BSA IT Mod and the delays that occurred in its development
                       could have a ripple effect on other projects yet completed. FinCEN
                       will need to continue to carefully manage the program. 23



23
   In January 2012, FinCEN reported to us that in December 2011 advanced analytics release 3 and
BSA query were behind schedule. In February 2012, FinCEN reported to us that data conversion and
release 1 of system of record, shared filing services, third party data, and E-filing were all completed on
time and within budget. We plan to review related documentation as part of our ongoing oversight of
the program.

                       FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,        Page 18
                       But Requires Continued Attention to Ensure Successful Completion
                       (OIG-12-047)
In addition, certain IRS officials expressed concern to us regarding
FinCEN’s new SOR. Specifically, their concern is that IRS will
continue to maintain WebCBRS and, as a result, will not be able to
directly upload BSA data in the new SOR format. As a workaround,
FinCEN is planning to provide the BSA data from its E-filing system
in the same format IRS currently uses. FinCEN will also map back
the data from the new BSA forms in the E-filing system to the old
(current) form format in WebCBRS. IRS needs WebCBRS to
communicate effectively with its other tax-related systems. At the
time of our review, FinCEN had not completed development and
testing of its data mapping effort to ensure IRS receives data in the
format it needs. It should be noted that this is a critical issue for
IRS because it is a major user of BSA data.

Complexity of the Program’s SOR Development

As noted above, the SOR is the authoritative data store for all BSA
data and a key element in BSA IT Mod. Setbacks in SOR
development could put BSA IT Mod at risk of delay, or even failure.
The SOR is to contain 11 years worth of BSA data (current year
plus 10 prior years that are currently housed in WebCBRS), and will
ensure chain of custody to the data. As part of the BSA IT Mod
program’s responsibility for maintaining filing history of BSA data,
the SOR will capture normal filing information and collect additional
information associated with E-filing—things like the date the BSA
data was received, acceptance and rejection decisions, and filing
error statistics and metrics.

FinCEN program documentation showed that SOR development
complexities resulted in the need for additional iterations in the
development and testing of the SOR and the need to ensure all the
business rules and data mapping were correct prior to conversion.
Business rules are coding programmed into the system that require
BSA filers to input specific data based on their responses to other
data fields. Complexity of business rules increase with the number
of data choices that a filer can select. Depending on the filer’s
selection, the business rules will determine the additional data
fields to be completed or left blank. For example, in filing a
currency transaction report, the filer can chose to file a report
about an individual or a business entity. Should the filer choose to

FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 19
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
                      file a report about a business entity (as opposed to an individual),
                      the business rules will require there be no associated first or middle
                      name, and that those fields be left blank.

                      As discussed above, to address the complexities of the SOR,
                      FinCEN added iterations to its development and testing. As a
                      result, FinCEN had to submit a baseline schedule change request,
                      which was approved by Treasury OCIO and accepted by OMB. The
                      change request extended the SOR schedule date by 2 months.

                      IRS and Mapping Concerns

                      IRS is a major user of BSA data. With the implementation of BSA
                      IT Mod, IRS’s role will change from being the SOR administrator to
                      a customer. FinCEN, as the SOR administrator, will be responsible
                      for providing the data to IRS and its other users.

                      Officials from both IRS’s Modernization IT Services and its Criminal
                      Investigations Division expressed concerns about the effect
                      FinCEN’s new SOR will have on IRS’s operations. Specifically, they
                      are concerned because the new SOR format is not compatible with
                      WebCBRS and other related systems. 24 In this regard, they stated
                      that FinCEN is not only changing the way the data is organized in
                      the database but is also adding data elements. In an April 2010
                      Treasury presentation to OMB, it was noted that IRS estimated
                      that it could cost $59 million to replace WebCBRS.

                      To accommodate WebCBRS until it is replaced, FinCEN and IRS
                      officials agreed that FinCEN will provide BSA data from its E-filing
                      system in the same format as IRS currently uses. (See appendix 3
                      for a depiction of the BSA data flow environment.) This means that
                      FinCEN will need to map the data back from the new BSA forms
                      format in the E-filing system to the old BSA forms (current) format
                      in IRS’s WebCBRS. However, IRS has expressed concern that the

24
  FinCEN’s SOR uses an extensible markup language (XML) format while the WebCBRS file format uses
American Standard Code for Information Interchange (ASCII). These formats refer to the way data is
stored in the computer file. ASCII is an older plain text file, traditionally used by many types of
programs. XML format is newer, more compatible with Internet applications, and the new U.S.
Government standard. FinCEN plans to provide bulk data to IRS and certain other users in either ASCII
or XML format.

                      FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 20
                      But Requires Continued Attention to Ensure Successful Completion
                      (OIG-12-047)
           data may not map properly; that is, new data fields may not
           correspond to WebCBRS’s current data fields. IRS is also
           concerned that during this process some BSA data could be lost
           when data in the new format is truncated to fit into the old format.

           The need to map BSA data for WebCBRS purposes was not in
           FinCEN’s original BSA IT Mod plan. In this regard, the original plan
           was for WebCBRS to be retired once BSA IT Mod was fully
           operational, but that proved not possible. Given IRS’s needs, we
           consider the mapping project to be a critical undertaking.
           Accordingly we plan to assess FinCEN’s progress on this in future
           work.

           FinCEN’s CIO told us the data IRS receives in the future will be no
           worse than the data it currently receives. IRS and other BSA data
           users will also be able to access the data from FinCEN once its
           modernized query function becomes available.

           As mentioned above, IRS and FinCEN agreed that FinCEN would
           continue to provide the data in the same format currently used by
           IRS’s WebCBRS, and that this would continue until the IRS
           determines how its downstream systems will be upgraded.

           We queried several other users of BSA data in law enforcement
           and the regulatory and financial industry as to whether they had
           concerns regarding BSA IT Mod. They did not. Stakeholders also
           did not have concerns over the cost to the government as a whole
           or the expense they may incur in the future to update their IT
           systems to be compatible with FinCEN’s new system.


Recommendations
           We recommend that the FinCEN Director:

           1. In conjunction with IRS, ensure in the short term that IRS’s
               WebCBRS data needs are met and; in the long term, assist IRS
               to ensure data requirements are incorporated into IRS’s
               modernization efforts.



           FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 21
           But Requires Continued Attention to Ensure Successful Completion
           (OIG-12-047)
    Management Response

    FinCEN, in the short term, will provide BSA data to WebCBRS
    via the current E-Filing system and formats. In support of the
    longer-term goal, FinCEN has been asked to participate on the
    IRS’s Integrated Project Team to define the IRS BSA data end-
    state solution. FinCEN’s involvement on the team includes
    providing the technical specifications for bulk data distribution,
    answering questions related to new BSA data structures, and
    providing support as requested.

    OIG Comment

    The actions taken and planned by FinCEN meet the intent of our
    recommendation.

2. Ensure that, for future major capital investments, required
   submissions to OMB include full life-cycle cost estimates in
   accordance with OMB Circular A–11 and that through
   documentation supporting estimates is maintained.

    Management Response

    FinCEN currently does not have a future major capital
    investment planned. However, when such a time comes,
    FinCEN will ensure that required submissions to OMB comply
    with OMB’s Circular A-11 and that required documentation
    supporting costs estimates are maintained.

    OIG Comment

    The above commitment by FinCEN meets the intent of our
    recommendation.




FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 22
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
                                 ******

We appreciate the cooperation and courtesies extended to our staff
during the audit. If you wish to discuss the report, you may
contact me at (617) 223-8640 or, Audit Manager Mark Ossinger,
at (617) 223-8643. Major contributors to this report are listed in
appendix 7.


/s/
Donald P. Benson
Director




FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 23
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
Appendix 1
Objectives, Scope, and Methodology




The objective of our review was to determine and report on
whether the Financial Crimes Enforcement Network (FinCEN)
established an appropriate business case and was following sound
management principles and federal guidance in planning and
implementing the Bank Secrecy Act Information Technology
Modernization Program (BSA IT Mod). We reviewed FinCEN’s
business case for developing the system and the program
governance model FinCEN established to supervise and monitor the
development progress, and determined the status of the program’s
cost, schedule, and performance through May 2011.

To accomplish our objective, we interviewed a variety of officials,
including FinCEN program officials, Treasury Office of Chief
Information Officer (OCIO) officials, Internal Revenue Service (IRS)
officials currently involved with managing and using Bank Secrecy
Act (BSA) data, and law enforcement users, and reviewed
applicable program documentation. We performed our fieldwork
from November 2010 to September 2011.

At FinCEN, officials we interviewed included the following:

•   The Chief Information Officer (CIO) and the BSA IT Mod
    program manager to gain information on the history of BSA IT
    Mod, a perspective on each individual’s knowledge and level of
    involvement, cost and schedule concerns, and overall progress
    of the program.

•   The Deputy Chief Financial Officer and lead budget analyst to
    gain a general understanding of the cost and funding for the
    BSA IT Mod.

•   The Assistant Director and the lead assessor of FinCEN’s
    Project Management Office to understand their roles in BSA IT
    Mod and to discuss their assessments of the program’s
    practices.

External to FinCEN, we interviewed the following officials.

•   The Director and the chief of strategic planning and analysis of
    the Treasury Executive Office for Asset Forfeiture Fund in

FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 24
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
Appendix 1
Objectives, Scope, and Methodology




    Washington, D.C., to obtain an understanding of the Treasury
    Forfeiture Fund role as a source of funding for BSA IT Mod.

•   Contracting officials at the Acquisitions Services Directorate of
    the U.S. Department of the Interior in Herndon, Virginia, to
    understand Interior’s role as the contracting office for BSA IT
    Mod.

•   Deloitte LLP’s managing director at the Deloitte offices in
    Washington, D.C., to understand Deloitte’s role in BSA IT Mod
    and ascertain the program’s status.

•   MITRE representatives in McLean, Virginia, as well as at FinCEN
    headquarters to gain an understanding of MITRE’s role as the
    federally funded research and development contractor, level of
    involvement with the program, as well as issues, concerns, and
    other significant matters observed.

•   The Treasury Associate CIO for Planning and Management, and
    the Treasury OCIO desk officer to understand their roles in
    overseeing BSA IT Mod.

•   IRS officials in New Carrolton, Maryland, and Detroit, Michigan.
    We spoke with officials from IRS’s Small Business/Self-
    Employed Unit, Modernization, Information Technology and
    Security Services Division, and Criminal Investigation Division to
    understand IRS’s involvement and to determine their needs and
    concerns as future users of FinCEN’s modernized system. We
    also interviewed the lead IRS cost estimator to discuss the
    results of his review of the FinCEN’s BSA IT Mod’s cost
    estimates.

•   IRS’s Associate CIO, Applications Development Group, to gain
    an understanding of her role with BSA IT Mod, coordination
    between IRS and FinCEN, and concerns regarding the program.

•   Various members of the BSA IT Mod stakeholder community,
    including officials or staff with the Federal Bureau of
    Investigations, Office of the Comptroller of Currency,

FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 25
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
Appendix 1
Objectives, Scope, and Methodology




    Immigration and Customs Enforcement, Federal Deposit
    Insurance Corporation, United States Secret Service, American
    Bankers Association, and FinCEN’s Integrated Project Team. We
    discussed their needs and concerns regarding BSA IT Mod, and
    discussed FinCEN’s outreach to their respective organizations
    for input on program requirements.

We reviewed program-related information that FinCEN provided to
us including the original and updated Exhibit-300s, the CIO’s IT
support services contract file, management reports, minutes from
executive, management and technical meetings, planning
documentation, program and project level documentation, FinCEN’s
analysis of alternatives, and various FINCEN presentations.

In addition, we reviewed program management briefings and status
reports, internal and external program performance assessment
reports, and related documentation to assess program performance
status, risks, and issues. We did not assess program test results as
testing had not been completed during the audit period.

We reviewed background information including (1) the Federal
Acquisition Regulation; (2) FinCEN’s Strategic Plan for 2008-2012
and 2010 Annual Report; and (3) laws, regulations, guidance, and
Treasury directives applicable to capital planning and investment
control and managing information systems and information
technology.

We initially requested from FinCEN all documentation associated
with BSA IT Mod. FinCEN informed us, however, that
documentation could not be provided unless we specifically
identified by name the documentation needed. Because we did not
know the specific names of most of the program-related
documents to request, this resulted in us having to make numerous
requests for what we consider to be basic documentation and data
that could have been provided up-front in response to our initial
information request. This is a matter of concern that was discussed
with FinCEN officials at the exit conference for this audit report.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require

FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 26
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
Appendix 1
Objectives, Scope, and Methodology




that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 27
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
                        Appendix 2
                        Additional Background Information on BSA IT Mod




                        The Financial Crimes Enforcement Network (FinCEN) is developing
                        the Bank Secrecy Act Information Technology Modernization
                        Program (BSA IT Mod) using a system development life-cycle
                        process, which divides the program into phases and related
                        deliverables. BSA IT Mod has 7 phases and 5 milestones, as shown
                        in table 5 below. 25 FinCEN reported that two phases, project
                        initiation and domain architecture, are complete.

Table 5: BSA IT Mod Phases
Phase                                Description                           Period of performance
Project Initiation                   Milestone 1 – scope/goals             January 2009 thru April
                                     definition                            2010
Domain Architecture                  Milestone 2 – specification of        January 2009 thru April
                                     operating concept and structure       2010
                                     of the solution
Preliminary Design                   Milestone 3- logical design of all    Ongoing since May 2010
                                     solution components
Detail Design                        Milestone 4A- physical design of      Ongoing since May 2010
                                     solution components
Development                          Milestone 4B- coding,                 Ongoing since May 2010
                                     integration, testing and
                                     certification of solutions
Deployment                           Milestone 5 – expanding               Ongoing since May 2010
                                     availability of solution to users
Operations and Maintenance                                                 Until system retirement
Source: OIG review of FinCEN data.


                        The BSA IT Mod program is made up of numerous projects with
                        specific components. A summary of the projects are described
                        below:

                        •   Infrastructure — Provides the design, development,
                            procurement, and implementation of the development and test
                            environments, storage area network(s), and disaster recovery
                            capabilities required to support the other BSA IT Mod projects.

                        •   Register User Portal/Identity Management/Access Control
                            Management — Provides a common user interface and

25
  Milestones are interim products or checkpoints along the system development life-cycle to confirm
that the proper steps are being followed, and to indicate progress towards completion of a phase or a
project.


                        FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,        Page 28
                        But Requires Continued Attention to Ensure Successful Completion
                        (OIG-12-047)
Appendix 2
Additional Background Information on BSA IT Mod




    authentication process through which authorized users will gain
    access to all future BSA IT Mod applications. Registered users
    will include both internal and external customers.

•   BSA E-Filing — Develops the system by which BSA filers will
    submit all required documentation to FinCEN.

•   Shared Filing Services — Assists in the validation of BSA data
    based on external data sources, such as validating addresses
    with the U.S. Postal Service.

•   BSA Data System of Record /Data Dissemination/Third Party
    Data — Implements the data storage and architecture for all
    BSA related data. Includes the implementation of third-party
    data ingestion, comparisons, and storage. Implements the
    distribution of large quantities of BSA data to external
    consumers.

•   Data Conversion — Completes the conversion of 11 years of
    BSA data from the legacy system to the new system of record.

•   Alerts - Provides the ability to automatically alert analysts to
    any suspicious activity based on pre-defined criteria.

•   Advanced Analytics — Implements complex search and retrieval
    functionality required by internal and external users to support
    analytical, law enforcement, and regulatory activities. Provides
    advanced analytical capabilities such as geospatial, statistical
    analysis, social networking, semantic interchange, and
    visualization capabilities.

•   BSA Query — Implements a tool designed to improve authorized
    users’ ability to access and analyze BSA data.

•   Broker Knowledge Exchange — Provides content management
    and collaboration support for internal and external stakeholder
    communities.



FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 29
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
                       Appendix 2
                       Additional Background Information on BSA IT Mod




                       In March 2008, FinCEN awarded a 5-year indefinite delivery,
                       indefinite quantity (IDIQ) contract 26 to BearingPoint, Inc., in
                       connection with the BSA IT Mod. The contract was subsequently
                       transferred to Deloitte Consulting, LLP. 27 The contract ceiling is a
                       maximum of $144 million and a minimum of $1 million over the
                       contract’s 5-year life. The contractor is to support FinCEN’s
                       Technology Solutions and Services Division by providing a full
                       range of information technology (IT) services, custom applications,
                       maintenance support, and infrastructure support necessary to
                       implement the FinCEN IT operational objectives that will evolve
                       over the course of the contract. Numerous program-related task
                       orders associated with the contract are to be issued during the 5-
                       year contract period.

                       FinCEN is using the Acquisitions Services Directorate of the U.S.
                       Department of the Interior as the contract office to administer the
                       contract. FinCEN chose this office because of its prior experience
                       handling large, complex procurements.




26
   An IDIQ contract provides for an indefinite quantity of services during a fixed period of time. This
type of contract is used when it cannot be predetermined, above a specified minimum, the precise
quantities of supplies or services that the government will require during the contract period. IDIQ
contracts are most often used for service contracts and architect-engineering services. An IDIQ contract
is flexible, especially when not all the requirements are known at the start of a contract and is
conducive to a modular approach, which would be one with phases or milestones.
27
   The IDIQ contract was transferred from BearingPoint, Inc., to Deloitte Consulting, LLP on October 1,
2009 after Deloitte Consulting, LLP, purchased substantially all of the assets of Bearing Point, Inc.,
Public Service Division.

                       FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,    Page 30
                       But Requires Continued Attention to Ensure Successful Completion
                       (OIG-12-047)
                   Appendix 3
                   BSA Data Flow Environment




The following is a depiction of the current environment for the flow of electronic and
paper Bank Secrecy Act (BSA) filing data into the Internal Revenue Service’s (IRS)
legacy system of record (SOR). Electronic filing is processed through FinCEN’s BSA
E-filing system directly into the Web-based Currency and Banking Retrieval System
(WebCBRS). Paper filing is processed by IRS (keypunched by a contractor) and is then
entered into WebCBRS. Once entered into IRS’s SOR, the data is accessable by IRS,
Financial Crimes Enforcement Network (FinCEN), and other users of the data.




 Source: FinCEN.




                   FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 31
                   But Requires Continued Attention to Ensure Successful Completion
                   (OIG-12-047)
                   Appendix 3
                   BSA Data Flow Environment




This depiction shows the interim operating environment, which is planned to
accommodate IRS’s need to have data provided to WebCBRS in the legacy format.
Data is to be mapped from BSA E-filing back to the IRS format for entry into
WebCBRS. FinCEN will also process all BSA reports through BSA E-filing and the data
will be directly entered into the BSA IT Mod system.




 Source: FinCEN.




                   FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 32
                   But Requires Continued Attention to Ensure Successful Completion
                   (OIG-12-047)
                    Appendix 3
                    BSA Data Flow Environment




This is a depiction of FinCEN’s planned final BSA IT Mod environment, which assumes
IRS will retire WebCBRS. When (and if) this occurs, all BSA reports will be filed by
BSA E-filing directly into BSA IT Mod. IRS will become a user of the data in the same
manner as other external stakeholders (law enforcement, regulators, and others), and
the re-mapping of data back to the WebCBRS legacy format will no longer be
necessary.




  Source: FinCEN.




                    FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 33
                    But Requires Continued Attention to Ensure Successful Completion
                    (OIG-12-047)
Appendix 4
Management Response




FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 34
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
Appendix 4
Management Response




FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 35
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
Appendix 5
Major Contributors to This Report




Boston Office

Mark Ossinger, Audit Manager
Kenneth O’Loughlin, Auditor-in-Charge
Jeanne DeGagne, Auditor-in-Charge
Joshua Lee, Auditor

Washington, D.C.

Farbod Fakhrai, Referencer




FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 36
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
Appendix 6
Report Distribution




Department of the Treasury

    Deputy Secretary
    Under Secretary for Terrorism and Financial Intelligence
    Chief Information Officer
    Office of Strategic Planning and Performance Management
    Office of Deputy Chief Financial Officer, Risk and Control Group

Financial Crimes Enforcement Network

    Director

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Appropriations

    Chairman and Ranking Member
    Subcommittee on Financial Services and General Government
    Committee on Appropriations

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Appropriations

    Chairman and Ranking Member
    Subcommittee on Financial Services and General Government
    Committee on Appropriations




FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,   Page 37
But Requires Continued Attention to Ensure Successful Completion
(OIG-12-047)
